TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Voucher Audit of the Information
                     Processing Support Services Contract –
                               TIRNO-00-D-00009



                                        February 27, 2007

                              Reference Number: 2007-10-050




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 27, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Voucher Audit of the Information Processing
                             Support Services Contract – TIRNO-00-D-00009 (Audit # 200610031)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 Information Processing Support Services Contract TIRNO-00-D-00009. The overall objective of
 this review was to determine whether selected vouchers submitted and paid under contract
 number TIRNO-00-D-00009 were appropriate and in accordance with the contract’s terms and
 conditions. We initiated this audit to determine whether the vouchers submitted by the
 contractor and paid by the IRS were accurate, supported, and allowable.

 Impact on the Taxpayer
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 To the extent our reviews assist the IRS in identifying and recovering inaccurate, unsupported,
 and unallowable charges, contract expenditures are reduced and taxpayer funds are saved.

 Synopsis
 We identified questionable charges totaling approximately $3.4 million, or about 19 percent of
 the approximately $17.8 million audited. The questionable charges consist of unallowable and
 unsupported costs, including approximately $2.1 million for 105 consultants whose résumés the
 contractor could not provide, $793,000 for 51 consultants who did not qualify for the positions
 for which they were charged, $289,000 for 19 consultants who were improperly granted
 experience waivers by the IRS, $179,000 for subcontractors whose résumés were not provided,
 $22,000 in unsupported labor charges, $9,000 in unsupported subcontractor charges, and $900 in
                 Voucher Audit of the Information Processing Support Services
                                 Contract – TIRNO-00-D-00009



unsupported travel charges. We provided details of these charges to the contractor and to
the IRS.
As part of this audit, we also examined contract correspondence files and interviewed the
Contracting Officer (CO) and the Contracting Officer’s Technical Representatives to determine
whether the contractor’s performance was satisfactory. Based on these limited auditing
procedures, nothing came to our attention that would lead us to believe there were significant
problems with the deliverables associated with the task orders included in our tests.

Recommendations
We recommended the Director, Procurement, require the appropriate CO to (1) review the
questionable charges of approximately $3.4 million and initiate any recovery actions deemed
warranted and (2) review the violations of the contract regarding qualification waivers and
initiate any recovery actions or ratify the waivers, as warranted.

Response
IRS management agreed with our recommendations. The CO has reviewed the questionable
charges of $3.4 million and has determined that the contractor will be given until April 30, 2007,
to provide additional supporting documentation. The CO will conduct a thorough analysis of the
additional documentation and determine whether recovery of a portion or all of the questionable
charges is warranted, including negotiating consideration on behalf of the Federal Government.
In addition, the CO will provide written guidance to reinforce to the contractor the correct
process for obtaining qualification waivers and identify the party responsible for approving such
actions. The CO will also provide additional guidance to Contracting Officer’s Technical
Representatives to remind them that the CO is the only individual who contractually can approve
waiver requests for contractor personnel who do not fully meet the education and experience
requirements of the contract. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                 2
                       Voucher Audit of the Information Processing Support Services
                                       Contract – TIRNO-00-D-00009




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges and Voucher Verification Process .............Page 2
                    Recommendations 1 and 2: ................................................Page 5

          Contract Deliverables Were Acceptable.......................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measure ................................................................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 12
       Voucher Audit of the Information Processing Support Services
                       Contract – TIRNO-00-D-00009




                      Abbreviations

CO              Contracting Officer
COTR            Contracting Officer’s Technical Representative
IRS             Internal Revenue Service
                    Voucher Audit of the Information Processing Support Services
                                    Contract – TIRNO-00-D-00009




                                              Background

In June 2000, the Internal Revenue Service (IRS) awarded contract number TIRNO-00-D-00009,
a cost-plus-fixed-fee/firm-fixed-price contract1 as a part of the Treasury Information Processing
Support Services contracts, the first of which was awarded in 1994. The objective of the
June 2000 contract was to provide a continuation of the broad range of information
technology-related services initiated by the original Treasury Information Processing Support
Services contracts. The IRS awarded task orders against the contract on either a
cost-plus-fixed-fee basis or a firm-fixed-price basis.
The contract was awarded for a base period from June 2000 through May 31, 2001. The contract
included four option periods that would extend the contract through May 31, 2005. The IRS
exercised all the options available under the contract. In addition, a contract modification was
issued that further extended the contract to November 30, 2005. According to the IRS Request
Tracking System,2 as of January 23, 2006, the IRS had awarded 23 task orders with a total value
not to exceed approximately $341 million and had approved 506 vouchers totaling
approximately $262 million for payment to the contractor.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this contract were
accurate, supported, and allowable through a review of contractor vouchers and supporting
documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility in Reston, Virginia, during the
period March through September 2006. Opinions expressed in this report pertain only to
vouchers included in our sample. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
  A cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the contractor of a
negotiated fee that is fixed at the inception of the contract. A firm-fixed-price contract provides for a price that is
not subject to any adjustment on the basis of the contractor’s cost experience in performing the contract.
2
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
                                                                                                               Page 1
                 Voucher Audit of the Information Processing Support Services
                                 Contract – TIRNO-00-D-00009




                                 Results of Review

Questionable Contract Charges and Voucher Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement and
documentation received directly from the contractor for a judgmental sample of 11 vouchers.
(see Appendix I for details). The sampled vouchers related to seven task orders. The 7 task
orders had award amounts totaling approximately $279 million and associated vouchers of
approximately $250 million. Our sample of 11 vouchers had processing dates from July 2003 to
January 2006 and totaled $17,839,917 in IRS payments. The primary expenses claimed by the
contractor were labor costs, subcontractor costs, and indirect costs such as overhead and general
and administrative expenses.

Questionable contract charges
We identified questionable charges of $3,411,179.10 (19.1 percent of the total audited) as shown
in Figure 1. We provided details of these charges to the contractor and to the IRS.
                      Figure 1: Schedule of Questionable Charges
                               Questioned Activity                Questionable
                                                                   Charges
                      Consultant Résumés Not Provided             $2,117,766.59
                      Use of Unqualified Consultants               $792,986.92
                      Improper Experience Waivers                  $289,040.65
                      Subcontractor Résumés Not Provided           $178,913.67
                      Unsupported Labor Charges                      $22,190.83
                      Unsupported Subcontractor Charges               $9,383.83
                      Unsupported Travel Charges                        $896.61
                      Total                                       $3,411,179.10
                     Source: Treasury Inspector General for Tax Administration
                     analysis of 11 vouchers submitted to the IRS.

The contractor could not provide résumés for 105 consultants, or 28 percent of the consultants
listed on the 11 vouchers we tested. Further, of the 264 consultants for whom we were provided
résumés, 51 were not qualified for their positions according to the contract. For example, in

                                                                                           Page 2
                    Voucher Audit of the Information Processing Support Services
                                    Contract – TIRNO-00-D-00009



June 2003 the IRS paid the contractor a total of $28,120.32, including general and administrative
expenses, overhead, and fees for consulting provided by a Senior Information Technology
Specialist. According to the contract, this Specialist position requires 8 years of progressive
experience in the field of information technology, including 6 years of specialized experience in
numerous highly specialized information technology disciplines involving a wide range of
hardware/software solutions. A maximum of 2 years of college education may be substituted for
2 years of experience. This consultant had been a Financial Officer in the military from
May 1988 to November 2000, involved primarily in financial and budgetary issues. Thus,
although the consultant may have qualified for another reimbursable position, the résumé did not
support the position for which this consultant was being charged.
In another case, the IRS paid the contractor a total of $22,154.48, including general and
administrative expenses, overhead, and fees for consulting provided in June 2003 by a Junior
Information Technology Specialist. This Specialist position requires 4 years of progressive
experience in the field of information technology, including 3 years of specialized experience in
highly specialized information technology disciplines involving a range of hardware/software
solutions. A maximum of 2 years of college education may be substituted for 2 years of
experience. This consultant, while possessing the requisite college education that substitutes for
2 years of experience, did not begin working in the information technology field until
September 2001, and thus did not qualify for the entry-level information technology position for
which he or she was being charged.3
In addition, 19 consultants with charges totaling $289,040.65 were provided improper
qualification waivers by the IRS. The contract requires the contractor to prepare a written
qualification waiver request and submit it to the Contracting Officer (CO) and the Contracting
Officer’s Technical Representative (COTR) when the contractor wants to hire an individual for a
specific labor category, but that individual does not possess all of the qualifications required for
that category. The contractor must receive written approval from the CO before the individual
can work on the task order. Each waiver we reviewed was signed by a COTR and the COTR’s
Branch Chief. The CO stated that he or she did not recall receiving waivers from the contractor
and did not delegate his or her authority to the COTR.
The Federal Acquisition Regulation4 stipulates a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed have been incurred. In our opinion, résumés or other suitable
documentation should be readily available for review to ascertain whether an individual meets
the educational, technical, or experience requirements of the position for which he or she is being



3
  In this example, the consultant was at least 3 months short of qualifying for the entry-level position. We did not
review other invoices to determine if this consultant worked on the IRS contract prior to June 2003.
4
  48 C.F.R. ch. 1 (2005).
                                                                                                               Page 3
                    Voucher Audit of the Information Processing Support Services
                                    Contract – TIRNO-00-D-00009



charged. The Federal Acquisition Regulation also provides that costs shall be allowed to the
extent they are reasonable, allocable, and allowable under the Federal Acquisition Regulation.

Voucher verification process
Contracts may be entered into and signed on behalf of the Federal Government only by COs.
COs have the authority to administer or terminate contracts and make related determinations and
findings. COs are responsible for ensuring performance of all necessary actions for effective
contracting, ensuring compliance with the terms of the contract, and safeguarding the interests of
the United States in its contractual relationships.
The requesting program office nominates a COTR, who is the CO’s technical expert and
representative in the administration of a contract or task order. Usually, the CO will appoint the
COTR by issuing a signed letter of appointment tailored to meet the needs of each contract. The
CO and the COTR are required to jointly review all appointed duties.
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives Handbook was the primary guidance for COTRs.5 Part IV of the Handbook
stated, in part, COTRs are responsible for reviewing and approving invoices and vouchers on
contracts. It also stated that COTRs will receive instructions regarding involvement in the
review and approval of invoices and vouchers from the CO. Attachment E of the Handbook
offered, as a sample responsibility, that COTRs are responsible for reviewing and signing off on
the vouchers to attest to their accuracy. Four of the 11 vouchers we reviewed during this audit
were subject to this guidance.
On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document A Guide to Best Practices for Contract
Administration (the Guide). The Guide offers, as a practical technique, that COTRs reviewing
vouchers under cost-reimbursement contracts should review, among other things, contractor
timecards to help assess the reasonableness of direct labor costs. The Guide also contains
directions to review major cost categories such as travel, supplies, other direct costs, and
subcontractor costs to again determine the reasonableness of the claimed costs.
None of the five COTRs involved with the vouchers we sampled for this audit were aware of the
existence of the Guide or that the Handbook was no longer the primary guidance for COTRs.
Three of the five COTRs reviewed the vouchers primarily from a budgetary standpoint, rather
than looking at details of expenses. None had written review policies, procedures, or checklists,
and three of the COTRs did not review the qualifications of any of the consultants provided by
the contractor. Because qualifications were not closely monitored, consultants who were not
qualified according to the contract’s requirements were allowed to work on the contract.

5
 Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
Contracting Officer’s Technical Representatives Handbook. The Circular also stated the Department of the
Treasury would no longer maintain the Handbook.
                                                                                                              Page 4
                 Voucher Audit of the Information Processing Support Services
                                 Contract – TIRNO-00-D-00009



We believe the identification of a significant amount of unsupported consultant qualifications,
which represented the majority of our questioned charges, was directly related to the incomplete
voucher verification process described above. We conclude that, if the IRS was periodically or
routinely requiring the contractor to provide such documentation, the contractor would have been
able to provide employee résumés when requested during the period of our audit. We will
continue to include a review of the IRS’ voucher verification process in future contract voucher
audits and, if warranted, recommend improvements to the process.
Further, allowing a contractor to use consultants who may not meet the requirements of the
positions for which they are being charged could provide the contractor with an unfair advantage
over other prospective contractors who did not bid on the solicitation because they did not have
sufficient staff that met those specific contract requirements as stipulated in the solicitation.

Recommendations
Recommendation 1: The Director, Procurement, should ensure the appropriate CO reviews
the identified questionable charges of $3,411,179.10 and initiates any recovery actions deemed
warranted.
       Management’s Response: IRS management agreed with this recommendation. The
       CO has reviewed the questionable charges and determined that the contractor will be
       given until April 30, 2007, to provide additional supporting documentation. The CO will
       conduct a thorough analysis of the additional documentation and determine whether
       recovery of a portion or all of the questionable charges is warranted, including
       negotiating consideration on behalf of the Federal Government.
Recommendation 2: The Director, Procurement, should require the appropriate CO to review
the violations of the contract regarding qualification waivers and initiate any recovery actions or
ratify the waivers, as warranted.
       Management’s Response: IRS management agreed with this recommendation. The
       CO agrees that additional documentation should be obtained from the contractor
       regarding the résumés which were not available from the contractor. Upon receipt of the
       additional documentation, the CO will conduct a thorough analysis and make a
       determination whether recovery of a portion or all of the costs is warranted, including
       negotiating consideration on behalf of the Federal Government for contractor personnel
       who did not fully meet the education and experience requirements. The CO will also
       provide written guidance to reinforce to the contractor the correct process for obtaining
       qualification waivers and identify the party responsible for approving such actions. Also,
       the CO will provide additional guidance to COTRs to remind them that the CO is the
       only individual who contractually can approve waiver requests for contractor personnel
       who do not fully meet the education and experience requirements of the contract.


                                                                                            Page 5
                Voucher Audit of the Information Processing Support Services
                                Contract – TIRNO-00-D-00009



Contract Deliverables Were Acceptable
We examined contract correspondence files and interviewed the CO and COTRs to determine
whether the contractor’s deliverables were acceptable for the 11 vouchers related to our voucher
review. In general, this contract was designed to provide sources of information processing
support services for the Department of the Treasury, the IRS, and other Department of the
Treasury bureaus. The IRS was to be the primary user in the following four principal task areas:
   •   Information Systems Services.
   •   Telecommunications Support Services.
   •   Organizational/Management Services.
   •   Operational Support Services.
Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with the deliverables associated with the vouchers
included in our tests.




                                                                                          Page 6
                    Voucher Audit of the Information Processing Support Services
                                    Contract – TIRNO-00-D-00009



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected vouchers submitted and
paid under contract number TIRNO-00-D-00009 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish our objective, we:
I.      Analyzed the IRS voucher verification process prior to certifying payment to the
        contractor.
        A. Interviewed the CO and COTRs to confirm our understanding of the voucher
           verification process.
        B. Documented voucher processing risks including accuracy, supportability, and
           allowability of voucher charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           vouchers.
II.     Verified whether voucher charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Identified a universe of Request Tracking System1 transactions as of
           January 23, 2006. The universe contained the expenses reflected on 506 vouchers
           processed between November 2000 and February 2006. The universe consisted of
           $340,830,327.28 in awards and $261,770,584.52 in processed transactions. To
           ensure our sample consisted only of material vouchers, we eliminated from our
           sample universe all vouchers of less than $100,000. We also eliminated all vouchers
           submitted prior to 2003. This ensured supporting documentation would be readily
           available, we would have the ability to identify current internal control weaknesses,
           and IRS managers and employees would be available who would be knowledgeable
           of the current voucher verification process.
             From this modified universe, we judgmentally selected 11 vouchers for review. The
             vouchers related to 7 task orders that had award amounts totaling approximately
             $279 million and associated vouchers totaling approximately $250 million. The

1
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
                                                                                                            Page 7
                Voucher Audit of the Information Processing Support Services
                                Contract – TIRNO-00-D-00009



          sampled vouchers had processing dates between July 2003 and January 2006 and
          involved $17,839,917 in IRS payments. We believed this sampling method would
          provide sufficient evidence to accomplish our audit objective and result in acceptable
          management corrective action without the need for a precise projection of sample
          results.
          This audit did not include procedures to obtain evidence that computer-processed data
          within the IRS Request Tracking System were valid and reliable. Although used
          during this audit, the data in general were not considered significant to the audit’s
          objective or resultant findings. We used the data within the Request Tracking System
          only to reasonably verify the universe from which we selected our sample of
          transactions for substantive testing of their accuracy, supportability, and allowability.
          We concluded and reported on those substantive tests. Therefore, there was no
          adverse effect on the audit as a result of not including the reliability of
          computer-processed data audit procedures.
       B. For the vouchers in our sample, obtained supporting documentation from the IRS and
          contractor and performed the following tests:
          1. Verified the mathematical accuracy of the vouchers and supporting
             documentation.
          2. Traced voucher charges to supporting documentation.
          3. Verified whether voucher charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether voucher charges were allowable under the terms and conditions
             of the contract.
III.   For the vouchers included in our sample, verified through interviews with responsible
       officials and reviews of project files whether the contractor’s performance and
       deliverables were acceptable as stipulated in the contract.




                                                                                            Page 8
                Voucher Audit of the Information Processing Support Services
                                Contract – TIRNO-00-D-00009



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Robert W. Beel, Lead Auditor
Melvin Lindsey, Auditor
Richard Louden, Auditor
Rashme Sawhney, Auditor




                                                                                        Page 9
               Voucher Audit of the Information Processing Support Services
                               Contract – TIRNO-00-D-00009



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                       Page 10
                 Voucher Audit of the Information Processing Support Services
                                 Contract – TIRNO-00-D-00009



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $3,411,179.10 (see page 2).

Methodology Used to Measure the Reported Benefit:
We examined vouchers and supporting documentation obtained from the IRS Office of
Procurement, as well as documentation received directly from the contractor, to verify charges
for a judgmental sample of 11 vouchers. We selected our sample from a universe of
$261,770,584.52 in transactions processed by the IRS. The 11 vouchers involved
$17,839,917.00 in IRS payments.
Our review resulted in the identification of questionable charges of $3,411,179.10. Specifically,
these charges consisted of $2,117,766.59 for consultant résumés not provided, $792,986.92 for
unqualified consultants, $289,040.65 for experience waivers improperly granted, $178,913.67 in
subcontractor résumés not provided, $22,190.83 in unsupported labor charges, $9,383.83 in
unsupported subcontractor charges, and $896.61 in unsupported travel charges.




                                                                                          Page 11
    Voucher Audit of the Information Processing Support Services
                    Contract – TIRNO-00-D-00009



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 12
Voucher Audit of the Information Processing Support Services
                Contract – TIRNO-00-D-00009




                                                       Page 13
Voucher Audit of the Information Processing Support Services
                Contract – TIRNO-00-D-00009




                                                       Page 14
Voucher Audit of the Information Processing Support Services
                Contract – TIRNO-00-D-00009




                                                       Page 15
